<html>
<title> - THE AFRICAN GROWTH AND OPPORTUNITY ACT AT 14: THE ROAD AHEAD</title>
<body><pre>[Senate Hearing 113-622]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-622

                  THE AFRICAN GROWTH AND OPPORTUNITY 
                       ACT AT 14: THE ROAD AHEAD

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2014

                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     
                                     

            Printed for the use of the Committee on Finance

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-133 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          COMMITTEE ON FINANCE

                      RON WYDEN, Oregon, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
MARIA CANTWELL, Washington           MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 JOHN CORNYN, Texas
ROBERT MENENDEZ, New Jersey          JOHN THUNE, South Dakota
THOMAS R. CARPER, Delaware           RICHARD BURR, North Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  ROB PORTMAN, Ohio
MICHAEL F. BENNET, Colorado          PATRICK J. TOOMEY, Pennsylvania
ROBERT P. CASEY, Jr., Pennsylvania
MARK R. WARNER, Virginia

                    Joshua Sheinkman, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)

















                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Wyden, Hon. Ron, a U.S. Senator from Oregon, chairman, Committee 
  on Finance.....................................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     3

                         ADMINISTRATION WITNESS

Froman, Hon. Michael, United States Trade Representative, 
  Executive Office of the President, Washington, DC..............     5

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Froman, Hon. Michael:
    Testimony....................................................     5
    Prepared statement...........................................    21
    Responses to questions from committee members................    26
Hatch, Hon. Orrin G.:
    Opening statement............................................     3
    Prepared statement...........................................    35
Wyden, Hon. Ron:
    Opening statement............................................     1
    Prepared statement...........................................    38

                             Communications

African Coalition for Trade......................................    41
African Cotton and Textile Industries Federation.................    47
American Sugar Alliance..........................................    57
CBI Sugar Group..................................................    67
The Esquel Group.................................................    73
Embassy of Malawi, et al.........................................    80
Embassy of the Republic of Mauritius.............................    83
National Pork Producers Council..................................    91
PVH Corp.........................................................    95

                                 (iii)

 
      THE AFRICAN GROWTH AND OPPORTUNITY ACT AT 14: THE ROAD AHEAD

                              ----------                              


                        WEDNESDAY, JULY 30, 2014

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:12 p.m., 
in room SD-215, Dirksen Senate Office Building, Hon. Ron Wyden 
(chairman of the committee) presiding.
    Present: Senators Stabenow, Cantwell, Cardin, Hatch, Crapo, 
Thune, and Isakson.
    Also present: Democratic Staff: David Eggleston, 
Legislative Fellow; Jason Park, International Trade Counsel; 
and Jayme White, Chief Advisor for International 
Competitiveness and Innovation. Republican Staff: Richard 
Chovanec, Detailee; Everett Eissenstat, Chief International 
Trade Counsel; Rebecca Eubank, International Trade Analyst; 
Kevin Rosenbaum, Detailee; and Shane Warren, International 
Trade Counsel.

   OPENING STATEMENT OF HON. RON WYDEN, A U.S. SENATOR FROM 
             OREGON, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    I would like to start this afternoon by thanking Ambassador 
Froman for joining us here today to discuss the African Growth 
and Opportunity Act.
    The President and the administration, in my view, have done 
a significant amount of good work with respect to America's 
economic relationship with sub-Saharan Africa, and the Finance 
Committee is looking forward to continuing to work with you, 
Ambassador Froman, as we pursue these issues in the days ahead.
    More than 14 years ago, the Congress passed the African 
Growth and Opportunity Act, which, of course, is known as AGOA. 
For the first time, the United States established a trade 
policy that was specific to sub-Saharan Africa. AGOA was 
designed by a bipartisan group of lawmakers with the goal of 
fostering opportunities for African entrepreneurship and 
strengthening its job-creating trade ties with our country. 
Today the law allows almost all products from eligible African 
countries to be imported duty-free.
    AGOA, in my view, has been a success, and it ought to be 
renewed and strengthened in the same way that it was 
established, colleagues, and that is through bipartisan work 
and cooperation.
    Our hearing is especially timely, because African leaders 
arrive in the Nation's capital next week as part of the AGOA 
forum. So now is a good time to begin to assess how AGOA and 
other preference programs like the Generalized System of 
Preferences fit into the larger trade puzzle.
    Much, of course, in sub-Saharan Africa has changed in the 
14 years in which AGOA has been implemented. In the wake of the 
great recession, Africa is a bright spot in the global economy. 
Over the past decade, economic growth in sub-Saharan Africa has 
bested the world's average growth rate by 2 percent. In that 
time span, six of the world's 10 fastest-growing economies were 
in Africa.
    There is also clear evidence that AGOA has been a success. 
In 2000, trade between the United States and Africa stood at 
less than $30 billion. It more than tripled over the following 
decade as exports diversified and grew, supporting job growth 
in both our country and in Africa. Some of the growth in trade 
was the increase in West African oil production and exports 
which would have occurred with or without AGOA. But even if you 
choose to take oil out of the equation, AGOA is responsible for 
significant growth and diversification among African exports.
    While AGOA is going to remain a program that is primarily 
intended to help Africa chart its own economic course, AGOA 
benefits our country as well. As sub-Saharan African economies 
have grown, in part because of this program, the region's 
buying power has gotten stronger. That is good for American 
exporters.
    There are more than 100,000 red, white, and blue American 
jobs tied to AGOA. American exports to sub-Saharan Africa grew 
about 250 percent since the program's inception, particularly 
benefitting aerospace, auto, and agricultural jobs here at 
home.
    The expiration of AGOA in September 2015 gives this 
Congress, the administration, and other stakeholders a chance 
to see where the program stands, to look at what works, and to 
develop plans to help AGOA adapt to Africa's fast-changing 
economic landscape.
    The evaluation process has to start early. That is why the 
Finance Committee is choosing to hold this hearing more than a 
year before AGOA's expiration date. African apparel 
manufacturers who benefit from the program often receive orders 
up to 9 months in advance, but they are not going to get these 
orders if there is uncertainty about when AGOA expires. Failing 
to renew and perhaps reshape AGOA in a timely manner could 
reverse important economic gains made over the last decade and 
a half, and no member of this committee, Democrat or 
Republican, wants that to happen.
    The Congress needs to explore ways to improve AGOA to 
further drive growth in a broader range of African exports. One 
method to consider is expanding the array of products that AGOA 
covers. Another option is making it easier for producers to 
draw from a bigger variety of sources in the manufacturing 
process.
    Our goal should be for AGOA to help increase the value of 
Africa's exports and promote growth and diversity in even more 
African countries. That way they can better compete with the 
economic hotbeds in the Asia-Pacific region and around the 
world.
    It is also important to recognize that, even with 
enhancements, AGOA is not a silver bullet for development. It 
has to be part of an overall strategy to increase trade ties, 
boost investment, and particularly cut burdensome red tape. The 
administration has recognized this as a priority as well, 
launching programs such as Power Africa and Trade Africa.
    The Overseas Private Investment Corporation, the Millennium 
Challenge Corporation, and the Export-Import Bank, in my view, 
all play significant roles in a comprehensive American approach 
to African development. The committee will do its part by 
looking for ways to enhance AGOA's impact in the months ahead.
    The fact remains that it is Africa and Africa alone that 
holds the power to continue to increase its people's living 
standards. The best way to accomplish that is to improve 
governance on the continent. Improving governance, 
strengthening the rule of law, cutting needless and burdensome 
regulation--all of these will help Africa attract investment.
    I want to conclude by simply saying that any AGOA 2.0 ought 
to be crafted in a way that complements efforts by African 
governments to improve the lives of their people. Fortunately, 
there are promising ideas to be heard. This committee is 
looking for ways to put them into practice. Senator Hatch and I 
have already had discussions about how we can work together in 
a bipartisan way.
    [The prepared statement of Chairman Wyden appears in the 
appendix.]
    The Chairman. Senator Hatch, we look forward to your 
statement.

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman.
    Welcome, Ambassador Froman. We appreciate you and the hard 
work you are doing. This is an important hearing, and I 
appreciate you coming and agreeing to participate.
    Before addressing today's topic, I really want to discuss 
our efforts to renew Trade Promotion Authority, or TPA. I have 
been raising this with you and the administration now for 
years, and, frankly, I cannot quite understand why the 
administration does not get behind you and get this done.
    I joined with my colleagues in the House and the Senate on 
a bipartisan basis to come up with the Trade Priorities Act. 
That bill renews and modernizes TPA. It is a bipartisan bill. 
It is something that makes a lot of sense. But shortly after 
introduction, the Finance Committee held a hearing on the bill, 
and, at that time, they wrote to you, Ambassador Froman, and 
formally requested that you appear at the hearing.
    Despite the President's call for TPA renewal, no one from 
the administration attended. At the time, I noted how important 
it was for the administration to publicly and forcefully 
advocate for congressional renewal of TPA, and, over the next 
several months, I urged you and others in the administration to 
be more active in advocating for TPA--for TPA renewal, that 
is--making it clear that the legislative window was rapidly 
closing. Despite my various calls for action and the calls of 
other Senators on this committee, the administration's efforts 
have been anemic in this regard. As a result, we are, 6 months 
later, no closer to considering TPA legislation than we were in 
January.
    Now, I do not have to tell you, Mr. Ambassador, that 
without TPA, the administration lacks congressional authority 
to negotiate and conclude trade agreements, and, if the 
administration chooses to negotiate and conclude a trade 
agreement, such as the Trans-Pacific Partnership, even in 
principal, without having TPA, they are going to be doing it 
without Congress's authorization, and I would like to see 
Congress involved.
    And if this happens, I doubt Congress would grant such an 
agreement the fast-track procedural benefits associated with 
TPA. At that point, Congress may simply consider the agreement 
on its merits under its regular rules and procedures, and that 
might not be very good, at least considering some of the past 
things that have happened.
    I think the President's trade agenda is at risk if we do 
not do this. Now, I am disappointed in the efforts I have seen 
thus far, and I hope they will improve in the future. I support 
AGOA.
    Mr. Chairman, I ask that my full remarks be placed in the 
record.
    The Chairman. Without objection, so ordered.
    Senator Hatch. But I am for AGOA. It is something that we 
ought to do, something we must do. We do that because it is a 
great thing for African countries that are involved, and it is 
the right thing for us as well. So I am going to support that 
as strongly as I can and support you in your efforts to get 
that done. But I really want to bring home once again how 
important TPA really is, and we should not keep putting it off.
    I presume the President, if he wants to do it at all, will 
probably try to do it in the lame duck session. It is called 
lame duck for a variety of reasons, one of which is, hardly 
anything ever gets done there. That has not always been the 
case. There have been some things done there.
    But I am really concerned about it, because I think that it 
puts you and your work way behind, as far as I am concerned, at 
least as far as getting congressional approval, which is 
essential in these matters.
    But in any event, Mr. Chairman, I intend to support you and 
Ambassador Froman on AGOA and get that done as soon as we can.
    The Chairman. Thank you, Senator Hatch. I just want you to 
know of my very strong interest in working closely with you on 
trade policy.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. What we are doing now is talking to all of 
those who have had a great interest in trade policy, and this 
is business and labor and environmental people and people who 
are concerned about health causes and digital goods. The list--
Senator Isakson, because he has been very involved in this 
area--goes on and on.
    The whole point of these discussions, apropos of Senator 
Hatch's important concern here, is the better the TPA, the 
better future trade agreements are going to be, and that is 
enormously important to my State, where about one out of six 
jobs depends on international commerce. And the trade jobs pay 
better than do the non-trade jobs.
    I just want Senator Hatch and all our colleagues on both 
sides of the aisle to know that we are going to pursue very 
vigorously these discussions with all of those who have had an 
interest in trade policy so we can get the best, best possible 
TPA, because we know that is going to pay big dividends as we 
go forward with a whole host of these trade issues.
    So thank you, Senator Hatch.
    The sole witness at our hearing today will be the United 
States Trade Representative, Michael Froman. It is his second 
appearance in front of the committee in recent months. We thank 
you for that.
    Ambassador Froman, it is our usual practice, as you know, 
to make your prepared statement a part of the record, and we 
would like to ask you to use 5 minutes or so to summarize your 
concerns, because I know colleagues have a number of questions.
    So, welcome.

     STATEMENT OF HON. MICHAEL FROMAN, UNITED STATES TRADE 
REPRESENTATIVE, EXECUTIVE OFFICE OF THE PRESIDENT, WASHINGTON, 
                               DC

    Ambassador Froman. Thank you very much, Chairman Wyden, 
Ranking Member Hatch, members of the committee, and thank you 
for inviting me here today to testify about AGOA.
    AGOA, as you have noted, has been the cornerstone of 
America's economic engagement with sub-Saharan Africa for the 
past 14 years, and it has had some very important successes. 
U.S. imports from AGOA countries have grown from $8.2 billion 
in 2001 to $26.8 billion in 2013, a threefold increase.
    Non-oil AGOA trade has increased almost fourfold during the 
same period, from $1.4 billion to almost $5 billion. U.S. 
direct foreign investment stock in sub-Saharan Africa has also 
increased from approximately $9 billion to $35 billion. And, 
according to the African Coalition on Trade, AGOA-related 
investment has resulted in the creation of some 300,000 jobs in 
sub-Saharan Africa and almost 120,000 jobs here in the United 
States.
    But there clearly is more work to be done. Utilization of 
AGOA is low and uneven. The bulk of U.S. imports under AGOA 
come from a handful of countries, and, although we are 
beginning to see diversification, exports under the program are 
still concentrated in a relatively few sectors.
    Finally, while the growth in exports has been impressive 
over the life of AGOA, in absolute terms, the level of exports 
is quite low. We can and must do better. And, to that end, last 
August I launched a comprehensive review of AGOA to examine 
both its successes over the last 14 years, as well as areas 
where it might be improved. And, as we undertook this exercise, 
we were mindful too that the Africa of 2000 is not the Africa 
of 2014.
    Six of the 10 fastest-growing economies in the world are in 
Africa, and African countries are increasingly moving away from 
unilateral preference programs and entering into reciprocal 
trading relationships, including with the European Union. As we 
think about AGOA's future, we need to consider how the U.S.-
Africa trade relationship should evolve over time as well.
    We draw three main conclusions from our review. First, 
while tariff preferences are important, they are not 
sufficient. African countries face constraints to trade that 
include inadequate and high-cost infrastructure, particularly 
in the energy and transportation sectors; burdensome customs 
procedures and other border barriers impacting Africa's 
regional and global trade; difficulties complying with 
agriculture safety and marketing standards, including sanitary 
and phytosanitary standards; limited skilled labor; and low 
productivity and competitiveness in non-oil value-added 
products. And, despite growing business interest in Africa, 
AGOA countries also continue to face difficulties finding 
partners in the United States.
    For AGOA to reach its full potential, it must be situated 
at the core of a comprehensive trade and investment strategy, 
an AGOA compact that targets the full range of supply-side 
constraints to trade in Africa, that creates new markets for 
African products, harnesses growing private-sector interest in 
trade and investment, and promotes regional integration and 
value-added production.
    Now, this also includes moving forward with implementation 
of the WTO Trade Facilitation Agreement concluded in Bali last 
year, which, by OECD estimates, could lower costs for 
developing countries in trade by up to 15 percent if fully 
implemented.
    Second, there are some areas in which the AGOA program 
itself can be updated and improved. This, of course, is the 
province of Congress, but the findings of our review may be 
helpful as you consider these issues.
    For example, the length of extension. Our research suggests 
that it is important to extend the program for a sufficient 
period of time to encourage investment in critical industries 
in Africa.
    Product coverage. As you said, Mr. Chairman, most AGOA 
beneficiaries enjoy duty-free treatment for virtually all of 
their products: 97.5 percent of the tariff lines are covered. 
However, there are still 316 tariff lines that continue to lie 
outside the program, and we believe that Congress should 
consider whether any new products can now be added to the 
program, keeping in mind domestic sensitivities.
    Rules of origin. AGOA has some of the most flexible rules 
of origin of any preference program. There are, however, areas 
of the program where flexibility has been constrained. For 
example, there are limits on accumulation of labor costs across 
AGOA countries and a cap on the use of U.S. inputs in meeting 
the requisite regional value content rules. Elimination of 
these limits could also encourage greater integration into 
regional and U.S.-Africa value chains.
    Eligibility criteria. AGOA's eligibility criteria have 
played an important role in raising standards and improving the 
rule of law throughout the continent. However, they have not 
been updated since AGOA was first established. Updating these 
criteria, for example, to include provisions relating to 
eliminating unwarranted SPS barriers and employment 
discrimination, could be an important way to modernize the 
program.
    Eligibility review processes. AGOA's mechanism for ensuring 
that countries meet eligibility criteria currently is all or 
nothing. An approach that allows for partial and more immediate 
withdrawal may allow the administration to take a more tailored 
and nimble approach to drive positive changes in beneficiary 
countries.
    We look forward to working with you to explore these and 
other issues in the process of moving forward with renewal.
    Third and finally, while the administration remains firmly 
committed to securing AGOA renewal, we need to begin working 
with our African partners to develop a vision of a trade 
relationship that goes beyond one-way preferences in the mid- 
to long-term. As I said, today's world is different from the 
one when AGOA was first enacted, both in Africa and in its 
relations with major trading partners.
    Against this backdrop, we need to consider the way ahead 
and how different tools, from unilateral preference programs to 
reciprocal trade agreements, might evolve to be used with 
different partners to help us achieve our goals of broad-based 
economic growth and prosperity.
    With that, let me thank you again for the invitation to 
testify, and I am happy to take your questions.
    The Chairman. Thank you very much, Ambassador Froman.
    [The prepared statement of Ambassador Froman appears in the 
appendix.]
    The Chairman. Let us talk about China's growing influence 
in Africa, first of all. While AGOA has resulted in an increase 
of U.S.-Africa trade since 2000, it appears that China's 
engagement with this fast-growing region has far surpassed our 
country. From 2000 to 2011, there was a 14-fold increase in 
Africa's trade with China compared to just a threefold increase 
during the same period for the United States and China.
    What are the consequences, in your view, to sub-Saharan 
Africa and the U.S. interests if China is significantly 
enhancing its economic footprint in Africa and we are lagging 
behind?
    Ambassador Froman. Well, we firmly believe that Africa 
ought to have good trade and investment relationships with 
everybody, whether it is China or India or Turkey or any number 
of other countries, the European Union, who are active in the 
continent, and it is up to the Africans to determine what kind 
of relationships they want to have and how to define those 
relationships to ensure that they work in their interests.
    Our experience has been that the more that other countries 
like China are active in Africa, the more Africans want the 
U.S. involved as well, because they know that we are not 
interested in just taking resources out of the continent. We 
are also interested in investing in human resources in the 
continent.
    The Chairman. If you might, give a couple of specifics. 
What are the administration's key proposals to enhance the 
value of AGOA and strengthen trade and economic ties between 
our country and sub-Saharan Africa?
    What would be the top two priorities, say?
    Ambassador Froman. Well, with regard to AGOA, as I 
mentioned, I think we need to look at both changes to the 
program itself with regard to eligibility criteria, product 
coverage, duration, and rules of origin, but then I think, very 
importantly, we need to situate it in the context of other 
policies that help address the 
supply-side constraints.
    For example, with regard to infrastructure, we are very 
active in helping to promote Power Africa to enhance 
electricity, access to affordable and reliable electricity, 
which is a key factor in the competitiveness of African firms 
being able to engage in the global economy.
    The Chairman. Let me see if I can get a couple of others 
in.
    One, with respect to how to improve reciprocity with 
developing countries, you talk about the need to move toward 
more reciprocal arrangements with emerging market countries 
rather than remaining satisfied just handing out these tariff 
preferences, and I strongly agree with that. And certainly 
there are legitimate questions about whether South Africa is 
ready to graduate from the program given the size of its 
economy.
    Is it time for Congress and the administration to consider 
whether countries like India, Thailand, Brazil, and Turkey are 
also ready to graduate from the Generalized System of 
Preferences program?
    Ambassador Froman. Well, I think the application of the GSP 
program is something that we need to think through and work on 
with Congress, stakeholders, and our trading partners.
    I note that both the European Union and Canada have 
recently reformed their GSP programs and have graduated a 
number of emerging economies. We have not done so. But I think 
we need to look at how do we move toward a better set of 
relationships with some of our key partners.
    We had some experience in trying to negotiate reciprocal 
arrangements in Africa with the South African Customs Union in 
early 2000. And one of the lessons we learned out of that 
experience is that, if the countries really are not ready for 
our kind of FTA, then it is not going to be a productive 
exercise.
    So I think we need to think through this. We need to work 
with you and our trading partners and our stakeholders to 
determine how best to move forward, taking into account 
different countries at different levels of development. In the 
meantime, we need to work with our trading partners to address 
bilateral trade issues so that we are not put at a competitive 
disadvantage vis-aa-vis our competitors who may already have 
those relationships.
    The Chairman. Ambassador Froman, let me close this round by 
asking you a question about human rights. It is my view that 
Senator Cardin, a very valued member of this committee, has 
done a great service by constantly coming back to this matter 
of human rights and trade. I would be interested in your 
thoughts about how the administration can use AGOA eligibility 
criteria to better battle human rights infringements.
    As you know, Uganda recently took a step that was not only 
in the wrong direction, but I think a global affront. It passed 
anti-gay legislation that I think contradicts globally 
understood human rights.
    How is the administration leveraging the eligibility 
criteria found in AGOA to address policies like the one I have 
mentioned in Uganda and elsewhere that are inconsistent with 
human rights and AGOA's criteria?
    Ambassador Froman. Well, first of all, the administration 
has spoken out and will continue to speak out around the world 
about the importance of implementing internationally recognized 
human rights, including with regard to LGBT individuals. We 
take this very seriously. We have taken a number of steps vis-
aa-vis Uganda, in particular, as you mentioned, in terms of 
pulling back in certain areas of cooperation.
    I wrote to my counterpart in February about this issue, and 
we are engaged with Uganda, along with the other agencies of 
the U.S. Government, on this issue to try to make progress. And 
we have made it clear that, in regards to respect for human 
rights, the criteria is that countries should not engage in 
gross violations of internationally recognized human rights, 
and we intend to take that seriously as part of our annual AGOA 
review process.
    The Chairman. My time has expired.
    Senator Hatch?
    Senator Hatch. Thank you, Mr. Chairman.
    Ambassador Froman, as you know, I introduced the renewal of 
Trade Promotion Authority, which specifically authorized 
ongoing trade negotiations. But TPA authority is not limited to 
those negotiations; it also opens up opportunities to negotiate 
new trade agreements with any nation willing and able to meet 
Congress's standards, including sub-Saharan Africa.
    Now, if you ever receive TPA, would you consider initiating 
trade negotiations with nations in sub-Saharan Africa, and, if 
so, which nations do you think you would consider?
    Ambassador Froman. Well, as I said, I think we need to very 
much look at this issue and figure out whether it makes sense 
to try to move toward more reciprocal trading arrangements with 
various countries. We had this experience in the 2000s which 
proved to be unproductive trying to do an FTA with the Southern 
African Customs Union.
    At the same time, much has changed since then. Many 
countries have signed Free Trade Agreements or Economic 
Partnership Agreements with the European Union. The EPAs with 
the European Union tend to be of a different standard than our 
FTAs. They tend not to include services necessarily or 
intellectual property rights or labor and environmental issues. 
And we would have to determine whether there is a model for 
reciprocal trade relationships with the countries that you 
mention, that you allude to, that make sense given our 
standards.
    Senator Hatch. You testified, I think, about the importance 
of full implementation of the WTO Trade Facilitation Agreement 
to economic growth for Africa and in Africa. For that reason, I 
have to say I am extremely disappointed that India appears to 
be going back on the deal it agreed to in Bali.
    With respect to AGOA legislation, what changes could we 
make that would best incentivize beneficiary countries to fully 
embrace the necessary trade facilitation reforms?
    Ambassador Froman. Well, we are quite concerned about the 
current situation at the WTO around the implementation of the 
Bali agreement and the Trade Facilitation Agreement. We have 
been engaged with other countries, including in sub-Saharan 
Africa, about the Trade Facilitation Agreement, and I am 
gratified that the African countries are quite interested in 
the Trade Facilitation Agreement and what it means for 
improving their competitiveness.
    There is a limited time left before the deadline comes, 
midnight tomorrow night, for the implementation of the Trade 
Facilitation Agreement, and I certainly encourage the other 
countries that are currently holding up that agreement--it is a 
very small number of countries that have expressed their 
willingness to break that consensus--I encourage them to come 
back to the table and support the consensus that would bring so 
many development benefits to countries, including in sub-
Saharan Africa, and the failure of which will have serious 
ramifications for the multilateral trading system itself.
    So we are encouraged on that.
    Senator Hatch. Last week the European Union completed an 
Economic Partnership Agreement with the Southern African 
Development Community, which is a group of countries in 
southern Africa, including South Africa. As a part of that 
agreement, the southern African countries agreed to protect 251 
geographical indications, or GIs, from the E.U.
    Now, this raises serious concerns. The E.U. has 
aggressively been using trade agreements to inappropriately 
protect generic terms around the world. Essentially, the E.U. 
is using its trade agreements to undercut market access for 
U.S. producers of products that use common names such as 
cheddar, parmesan, and mozzarella.
    While the TPA bill I introduced has provisions to address 
these practices, I would like to know what you are doing to 
combat this threat and to ensure U.S. producers do not lose 
market access opportunities overseas due to the E.U.'s 
inappropriate use of GI protection.
    Ambassador Froman. We completely are in agreement with you 
about the importance of addressing this issue. We are doing so 
in TTIP directly with the E.U., but also in TPP and in our 
other bilateral discussions.
    The point that we make to all of our trading partners is 
that the trademark system and the common name system that we 
have in the United States works very well, including for 
European producers of these products, but their GI system does 
not work for our producers of these products. So we are pushing 
very hard to make clear that we would find that unacceptable in 
a trade agreement.
    Senator Hatch. According to the International Trade 
Commission's AGOA report released in April of this year, 24 out 
of 39 countries eligible for AGOA benefits report utilization 
rates of 10 percent or less, and 21 countries had utilization 
rates of less than 1 percent. South Africa, the beneficiary 
with the highest program utilization, was only at 31 percent.
    So what are the most significant constraints to AGOA 
beneficiary country utilization of the AGOA program?
    Ambassador Froman. I think that underscores the importance 
of addressing the supply-side constraints that are preventing 
full usage of AGOA, for example, hard infrastructure, the lack 
of roads, supports, and reliable, affordable electricity--and 
Power Africa is very much directed at that effort.
    Soft infrastructure. Right now, you get to a border. You 
may wait for days to cross the customs plaza. It does not have 
a computer system that can talk to the next customs plaza. You 
wait another few days to get through there, and, by the time 
you get through the two customs plazas, you have added a great 
deal of cost to your shipment, and maybe your shipment is 
spoiled.
    So coming together, having single IT systems that can speak 
to each other, that can link customs organizations, that can 
get to a single customs crossing, we are addressing that 
through Trade Africa and some of the work that we are doing on 
that.
    Issues around capacity building, having the USDA help 
strengthen laboratories in sub-Saharan Africa, and inspectors 
to help farmers meet our SPS standards and our other 
standards--those are all things that we can do to help increase 
the utilization of AGOA. Again, the review that we have done 
over the last year shows that these tariff preferences, while 
important, are simply not enough, that we have to address the 
other issues.
    The last thing I would say is, on the demand side, many of 
these are small countries and small markets, and it is 
important that they succeed in their efforts to integrate 
regionally with their neighbors, and we are promoting regional 
integration in Africa, including by working with the East 
African community, for example, on a regional investment 
arrangement.
    Then they have a larger market for their products, it is 
more efficient for them, and they can produce more competitive 
products.
    Senator Hatch. Thank you, sir.
    The Chairman. Thank you, Senator Hatch.
    Senator Isakson?
    Senator Isakson. Mr. Chairman, if I can, on a point of 
personal privilege, I would like to acknowledge the presence of 
Congresswoman Karen Bass from California, who is in the 
audience today. She is a steadfast worker on behalf of the 
African continent and U.S.-Africa relations and traveled with 
Ambassador Froman and myself to Ethiopia last year to the 
African summits.
    The Chairman. And to keep our tradition of bipartisanship, 
let me second your comment, Senator Isakson, because I am very 
much aware of the Congresswoman's good work, and we are glad to 
have her here today as well.
    Please go ahead with your questions.
    Senator Isakson. Thank you, Mr. Chairman.
    Three great things have happened on the continent of Africa 
in the last 25 years. One, under the Clinton administration, 
AGOA was negotiated and implemented.
    Number two, under President Bush's initiative, PEPFAR (the 
U.S. President's Emergency Plan for AIDS Relief) was 
established, which is the greatest single humanitarian 
accomplishment, I think, in terms of health, in the history of 
mankind.
    Then, third and most importantly, the Millennium Challenge 
Corporation has allowed many African countries to be able to 
develop the infrastructure necessary to be good trading 
partners.
    I think former Chairman, now Ranking Member Hatch's point 
on TPA should be noted to this extent. AGOA is a nonreciprocal 
trade agreement. So it is not affected by TPA. But the stated 
goals of AGOA are to establish, hopefully, trade relationships 
and free trade agreements with African countries by building 
and developing, which would be subject to Trade Promotion 
Authority.
    So I think, every time we look the other way and put off 
the inevitable--that is, giving the President the authority 
under TPA that he needs, as well as the clear signal that trade 
is important to the Congress of the United States--we run the 
risk that we are not going to ever be able to cash in on the 
tax dollars of the American people that are invested in PEPFAR, 
the Millennium Challenge Corporation, or in AGOA.
    So I think Senator Hatch makes an outstanding point. We 
always talk about how we are going to get around to TPA, but I 
think, when you talk about things like AGOA, which was 
predicated on building relationships toward a future free trade 
agreement, it shows you that time is of the essence in terms of 
doing that.
    That is a speech. That was not a question. You can comment 
or not comment. I will give you your choice on that.
    On the human rights question asked by the chairman, I want 
to brag about Ambassador Froman for a minute. Last year, in 
Addis Ababa, Ethiopia, he had to leave early, and he came up to 
me and said, ``Would you go meet with Swaziland for a minute 
and explain to them if they don't get their act together in 
terms of worker rights, there could be consequences?''
    Do you remember that?
    Ambassador Froman. I do indeed.
    Senator Isakson. So I went and met with Swaziland to 
explain to them that beating up on workers and denying them the 
right to organization and physically abusing them would be a 
violation of principles the United States felt they need to 
meet.
    To the Ambassador's credit, last month, I believe they were 
dropped from compliance with AGOA. Is that correct?
    Ambassador Froman. That is correct.
    Senator Isakson. Which leads me to the question I will 
require you to answer. As we go into this current period 
between now and next September and the next iteration of AGOA, 
should we not have a tiered way for somebody to come back, like 
Swaziland, to get back into the AGOA agreement? Because right 
now, as I understand it, it is cold turkey and there is no 
really tiered structure where compliance can bring them back 
into AGOA. Is that correct?
    Ambassador Froman. That is correct, in that it is an all or 
nothing kind of switch. And that is one of the ideas that we 
are proposing as Congress considers the renewal of AGOA, that 
it would be worth looking at ways to have other more flexible 
ways of limiting access and doing things in different time 
periods than currently exist, and we have had success.
    We have turned off AGOA for political issues, such as 
coups, for a number of countries over its history--Mauritania, 
Cote d'Ivoire, Guinea, Niger, Madagascar, and Mali--and those 
countries all were re-entered into AGOA. They were allowed to 
rejoin AGOA and become eligible again as they moved toward 
democratic elections and democratic transitions.
    So we certainly want to have the ability to both 
incentivize them, to engage them in better policies, and, when 
they do so, to reward them by giving them access again to the 
AGOA program.
    Senator Isakson. I know that the length of the extension of 
the next AGOA agreement is certainly an issue that was 
discussed at Addis Ababa, from 15 and 17 years out to shorter 
periods of time, like 3 or 4. But it seems like, to me, if we 
are ever going to get to the goal, which is a foundation for 
free trade agreements with African countries that are 
compliant, we ought to have some tiered levels of 
accomplishment or participation so that we can go from an AGOA 
agreement which is nonreciprocal to a true free trade agreement 
with those countries.
    Would you agree with that?
    Ambassador Froman. Well, I think that bears a lot of 
looking at. Yes. I think we need to work with you to think 
through exactly how to do that, on both what the duration 
should be and how we think about different tiers of countries 
who may be more or less ready to engage in reciprocal trade 
arrangements.
    At the same time, we want to take into account regional 
supply chains or regional value chains. If we do an FTA with 
one country, do we not want to make sure we are not disrupting 
important integration that is going on in the region as well?
    So these are complicated issues that we very much look 
forward to working with you on.
    Senator Isakson. My last point, Mr. Chairman.
    From my experience in Africa, getting the African countries 
to recognize intellectual property protection, worker rights, 
standards like we do in the United States, pay attention to 
corruption and have a more stable environment in which to 
trade, is the biggest single asset for the African countries to 
grow and prosper under the next future AGOA agreement.
    I commend the Ambassador for the work that he has done and 
pledge to work with him in any way possible to facilitate an 
extension of that agreement.
    Thank you, Mr. Chairman.
    The Chairman. I do not want to make this a bouquet-tossing 
contest, but let me throw the commendations back to you, 
Senator Isakson, because I know you have put a lot of years 
into this effort at fostering trade relations with Africa, and 
I very much appreciate your leadership.
    Senator Thune?
    Senator Thune. Ditto, Mr. Chairman. I also compliment my 
colleague from Georgia. He has worked really hard on a lot of 
these issues.
    I appreciate you and Ranking Member Hatch holding the 
hearing today, and I thank Ambassador Froman for being here.
    The last time that we did this was in 2012, and let me just 
say that AGOA is a great, important program that is helping the 
nations of sub-Saharan Africa raise their standards of living 
and adopt the rule of law. Since we did this the last time, we 
added South Sudan as an eligible country so that the citizens 
of that country can benefit from the greater market access for 
their products in the United States. So I hope this hearing 
will be the beginning of a process for considering reforms to 
AGOA before the program expires next September.
    I would also say--and I am sure you have heard it before, 
but it is a point we cannot emphasize enough--we need TPA. You 
can negotiate the best agreements possible, TTIP and TPP, but 
we are not going to get them through Congress without Trade 
Promotion Authority, and I just hope that you and the 
administration will become fully engaged with Congress on that 
issue. For some reason, we have not been able to get that 
moving forward.
    I wanted to ask a question, and it is not really AGOA-
specific, but one of the challenges that we are facing in 
agriculture is making sure that our American ag technologies 
are available to help nations of the world feed their 
populations.
    I do not think there is anywhere in the world where 
American technology, such as agricultural biotechnology, could 
be more useful than on the African continent. Yet we know that, 
in the past, cultivation of biotech crops has been hampered by 
the unwillingness of the E.U., which is a major African export 
market, to approve these products.
    In the context of the ongoing TTIP negotiations, how can we 
ensure that the higher yields and other benefits of 
agricultural biotechnology will be available to the nations 
that need them the most and that these products, when exported 
again, will not be discriminated against?
    Ambassador Froman. Well, this is a very important issue in 
our TTIP dialogue. We have made clear that we want to see SPS 
standards and other standards based on science.
    The E.U. actually has its own law and its own procedure for 
approving biotech products. We prevailed in a WTO case against 
them for them not implementing that law sufficiently well. They 
have lost a European Court of Justice case, and our first step 
with them in TTIP is to encourage them to apply their own law 
and their own procedures to ensure that biotech products are 
evaluated on science and are processed accordingly.
    Recently, as you may know, the E.U. took a decision that 
would allow countries in the E.U. to make their own individual 
decisions about the importation and cultivation of genetically 
engineered products, and we are hopeful that, as countries 
decide whether they want to allow that cultivation to occur, we 
will begin to see some progress in educating people about the 
safety of those products and that they will make progress in 
terms of market access in that regard.
    Senator Thune. I just think it is a huge issue. Europe is a 
huge export market for Africa, and, if you want to see the 
African people, countries on that continent, be able to better 
feed themselves, as well as to export and grow an economy, that 
issue is critically important.
    So I hope that you will continue to impress upon your 
colleagues, in the trade negotiations with the Europeans at 
least, that opening up to these products which are proven to be 
safe is something that they should figure out a way to 
expedite.
    I know that they have their own process, as you described, 
but sometimes those processes are very bureaucratic and, in 
many cases, used, I think, to protect agriculture on the 
European continent.
    Just briefly, in your testimony, you talk about updating 
AGOA eligibility standards. You mentioned the unjustified 
sanitary and phytosanitary measures that have been adopted by 
some African nations. I am wondering if you could elaborate on 
some of those measures and how an updated AGOA might help to 
address them.
    Ambassador Froman. Currently, among the eligibility 
criteria, AGOA partners are required to elimiate or to be 
making continual progress toward eliminating barriers to U.S. 
trade and investment. So they already have an obligation to 
eliminate barriers to U.S. trade and investment.
    What we have seen over the last few years are increasing 
barriers being erected around sanitary and phytosanitary 
standards. So one of the recommendations that we will make to 
Congress as you consider the renewal of AGOA is to explicitly 
mention the SPS standards as one of those barriers that we will 
take into account as we do the annual review of AGOA 
eligibility.
    Senator Thune. Mr. Chairman, my time has expired. Thank 
you.
    The Chairman. Thank you.
    Senator Cardin is next.
    Senator Cardin. Thank you, Mr. Chairman.
    Ambassador Froman, thank you. I think the timing of this 
hearing is great, well in advance of the expiration of the AGOA 
law. I am pleased that we are working on this early.
    I think it is important that a message be included in the 
meetings next week with African leaders that the Congress is 
very much engaged on strengthening the ties between Africa and 
the United States, and one of those is to look at tools that 
have worked, such as AGOA, look at strengthening it and making 
sure that those tools continue to be available. So I applaud 
you for that.
    I know Chairman Wyden has already mentioned a subject that 
you and I have talked about, and I thank him for that, and that 
is that good governance and human rights need to be and are 
already part of the AGOA process, as you just pointed out in 
response to Senator Thune.
    I would urge you that, as we look at improving and 
strengthening AGOA, part of that should be higher expectations 
on the good governance issues and ways to monitor the progress 
that is being made in these countries in a more effective way.
    I want to ask a question on a second issue that we have 
talked about, and that deals with capacity building. We do 
invest today development assistance in African countries, some 
of which are exporting to us under AGOA.
    How do you coordinate our development assistance--how do 
you deal with private-public partnerships as part of AGOA--so 
that countries can really take advantage of the AGOA laws?
    It is one thing to have trade agreements. It is another 
thing to have the capacity to use those trade agreements in the 
best interests of your country, and in many of the African 
countries, they really do not have the capacity to deal with 
that.
    So the question is, how do you use AGOA to further the 
capacity opportunities of these countries so that we really do 
develop growing economies, stable markets, a growing middle 
class to buy U.S. products--all of the above. How do we do 
that?
    Ambassador Froman. Thank you for that question. And I think 
you will probably be hearing more about this this week around 
the AGOA forum and the leaders' summit.
    But to preview that, let me just say we have a whole-of-
government approach to what we are doing now on trade and 
investment in AGOA, and it recognizes the role of the State 
Department, the Commerce Department, USAID, MCC, USDA, the 
Trade and Development Agency, all working to address those 
supply-side constraints that I mentioned that will determine, 
in our view, whether AGOA is more successful going forward--
even more successful than it has been in the past.
    For example, on capacity building, one of the areas we have 
identified as a need is to train inspectors and to upgrade 
laboratories in sub-Saharan Africa so that they can work with 
farmers there to more successfully meet our sanitary and 
phytosanitary standards. And we are working with USAID and USDA 
on a capacity building program, to expand their capacity 
building program to achieve that objective.
    We are also working to develop young entrepreneurs and to 
give them the access, the networks, the training that they need 
to be able to take advantage of that.
    I had the honor this morning of meeting with 500 Mandela 
Washington fellows under our Young African Leaders Initiative. 
They are here in Washington this week. They have been in the 
country for a month or so, having internships around the 
country in various companies. They will be going back to 
Africa, networking among themselves.
    There were 50,000 applications for this program. Five 
hundred people were selected from all over Africa, and this is 
a program that we are going to continue to build upon that 
helps create the entrepreneur class in these countries who have 
ties to the United States and who want to see their products 
make their way through AGOA to the U.S. market.
    So we are using all of our interagency partners, MCC, 
through their compacts, building roads, working on constraints 
on growth, USAID, USDA, the Trade and Development Agency, OPIC, 
and the like, to address all the issues that go into Africa 
being able to take advantage of AGOA.
    Senator Cardin. Let me mention one of the major pluses of 
AGOA, and that is that it has helped women. Many of the people 
who have benefitted from these opportunities have been women. A 
lot of these fields are dominated by women.
    So I would hope that part of our capacity building would be 
geared toward gender sensitivity on how women are treated in 
the economies of these countries.
    Ambassador Froman. Absolutely. It is a key part of our 
human rights and our labor rights. In fact, one of the 
proposals we are making on the workers' rights piece of this is 
to include nondiscrimination, to upgrade the definition of 
internationally recognized workers' rights, as the ILO does, to 
include nondiscrimination as well.
    There is also the African Women's Entrepreneurship program 
which the U.S. supports. It has been very effective in bringing 
together women entrepreneurs in Africa and markets here in the 
United States, including through the trade hubs, and we are 
looking at ways to build on that as well.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Stabenow?
    Senator Stabenow. Thank you very much, Mr. Chairman and 
distinguished Ranking Member. This is a really important 
hearing.
    I think that it is clear that we want to get AGOA 
reauthorized.
    Thank you, Ambassador Froman.
    I wanted to follow up on the capacity issues and, first, 
underscore what Senator Cardin said in terms of leadership from 
women. As I have been focusing more on Africa as the chair of 
the Agriculture Committee, it is very clear that, first of all, 
agriculture is a huge economic driver in Africa and, secondly, 
that women are providing so much of the leadership, going from 
micro-loans to be able to support their families, to gardens 
for villages, to communities, to looking at how they now move 
out to export or to expand.
    So I want to underscore, I think, the importance of 
capacity building as it relates to women in leadership. Also, I 
wonder if you might just talk a little bit more--because I 
think capacity challenges are so important in terms of what 
happens to hold countries back.
    You mentioned transportation. We know that if you cannot 
move materials, you cannot move goods, you are not going to be 
able to take advantage of AGOA. We know that simple things like 
cold storage become an issue around meeting SPS standards.
    By the way, I would also underscore what Senator Thune said 
in his comments on technology and, also, your efforts around 
barriers, using SPS standards as barriers, which I think is a 
really important issue to deal with as part of this agreement, 
because I do think that that is something that needs to be 
addressed.
    But when you look more broadly at capacity building and our 
role in that or other organizations' roles and so on, how do 
you see the U.S. Government being involved in that? What are 
the tools, the other tools that we can be using to deal with 
the capacity issues so countries can fully utilize AGOA?
    Ambassador Froman. I think we have a number of tools, and 
we are not starting from scratch. We have been involved in what 
we call Aid for Trade for quite some time. We were quite a 
generous donor on Aid for Trade. We are a leader globally in 
that area, and we also play a convening role in bringing other 
donors and multilateral development banks and other 
institutions to the table on that.
    That is the approach we have taken here as well. Through 
this consultation process over the last year, we have heard 
from people about the importance of addressing the capacity 
building issues, as you mention, on women, on young 
entrepreneurs, on meeting SPS standards, meeting technical 
barriers of trade, technical standards as well, and we have 
something called the Standards Alliance which works with 
countries to help provide technical assistance to them, to 
train them on how to meet technical standards to address the 
U.S. market, and we are going to work with all of our 
interagency partners to do that.
    But it is not something we have to do alone either. We are 
part of a larger donor community, part of a larger 
international community.
    So, for example, on trade facilitation, which is a key part 
of this, we can bring together customs organizations so that 
they have the same procedures and have the same policies, 
actually have common information technology platforms. If you 
clear a shipment in Mombasa, you do not have to re-clear it 
every time it crosses a border in the East African community.
    That is something we are doing through the WTO, with the 
African Development Bank, with the World Bank, as well as with 
the other donors. And we have played an active role in helping 
to identify those resources to make sure they are coordinated, 
and we work with the African countries on their needs 
assessments to be able to address those.
    Senator Stabenow. Just quickly--my time is running out--I 
know that we have had a lot of U.S. agriculture companies that 
have been involved for a long time in Africa, and more and more 
all the time, and they are focusing on issues like drought 
resistance and water conservation and other issues.
    We also have land grant colleges, like Michigan State 
University, my alma mater, that are very involved in research.
    How are USTR and our partner agencies facilitating the 
exchange of knowledge and technical resources between U.S. 
agriculture and AGOA nations? Are there things we could be 
doing better there?
    Ambassador Froman. Thank you. We are working with the rest 
of the interagency community. And Raj Shah, the head of USAID, 
in particular, has played a leading role, for example, on the 
new Alliance for Food Security and Nutrition, bringing to the 
table both U.S. research institutions and the U.S. private 
sector to invest in Africa, bring in technology, bring in 
technical training, to make sure that they can meet SPS 
standards, increase agricultural productivity, and develop 
those markets that ultimately will be both to the benefit of 
Africa in terms of development, but also will help them get 
access to global markets as well.
    So we are working with all of our interagency partners to 
try to make sure we have a whole-of-government approach, a one-
stop-shop approach. So, as we sit down with our African 
partners, we can look at all of their needs and what capacity 
constraints they face and bring the appropriate resources to 
bear.
    Senator Stabenow. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Stabenow.
    I also want to note that you and Senator Isakson had a very 
good hearing, I think it was yesterday, on the 2-year 
anniversary of the U.S.-Korea free trade agreement, and we know 
that you, as chair, and Senator Isakson are going to do an 
excellent job there. I am anxious to hear more about the 
lessons learned.
    I have only one other question--and this will not surprise 
you, Ambassador Froman--and it is on the digital infrastructure 
of Africa, because I think Senator Stabenow is absolutely right 
about what we have always thought of with respect to the 
physical infrastructure. We talk about roads and rail and 
water, but we need to think about, for example, how an African 
farmer is going to get information about markets, for example, 
if they do not have any access to broadband.
    So tell me, if you would, what is the administration doing 
in terms of working with Africa on infrastructure challenges, 
particularly as they relate to Internet-based infrastructure?
    Ambassador Froman. As you know, Africa has been an area of 
great growth in this area. Over 50 percent of urban residents 
in Africa are now online. There are more than 50 million 
Facebook users in Africa, and mobile phone penetration, perhaps 
most importantly, has gone from 1 percent to 50 percent of the 
African population.
    That is absolutely critical to the issue you mention about 
farmers, for example, and folks in rural Africa who are now 
getting information on their mobile phones about weather, about 
market prices, which can help them make decisions about what to 
plant and when to harvest and where to sell their product and 
at what prices, because of that connectivity.
    There is certainly more to be done there, and it is one 
area we have been focused in particular on in our food security 
program, Feed the Future: technology and how to use Internet 
connectivity and mobile technology to help farmers achieve 
greater productivity.
    Of course, it is one of the underlying issues behind Power 
Africa. We want to make sure that there is affordable, reliable 
electricity throughout the continent so that when people are 
charging their phones or getting online, they can stay 
connected to the rest of the world.
    The Chairman. I am only going to make one point in wrapping 
up--and I think Senator Hatch and I do not have any further 
questions.
    Generally, Mr. Ambassador, I think there has been a sense 
that AGOA was seen as the program that Congress created; this 
was essentially Congress's effort. And my view is, this 
administration has focused on AGOA in ways that no other has, 
in part by your interest, Mr. Ambassador, and certainly the 
President's.
    So I think my judgment, as we leave now, given that history 
where people said, ``Hey, I think this program, AGOA, is a good 
program, it is Congress's,'' is that it is clear now that the 
Obama administration owns AGOA too. I think that is very 
valuable.
    The policy options you shared with the committee today are 
going to be taken seriously as we continue our work.
    I always like to see if Senator Hatch wants to offer the 
last word, but we appreciate your cooperation.
    Senator Hatch?
    Senator Hatch. I appreciate the work you do. You are 
certainly an intelligent man, and I have no doubt that you will 
be able to accomplish whatever you decide to do.
    I just want to make sure you have the tools to be able to 
do it, and that we have the tools up here to be able to help 
you.
    So I have every confidence in you and wish you the very 
best.
    The Chairman. With that, the Finance Committee is 
adjourned.
    [Whereupon, at 3:10 p.m., the hearing was concluded.]
    
    
    
    
    
                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             Communications

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]

</pre></body></html>
